   U.S. SMALL BUSINESS ADMINISTRATION

       OFFICE OF INSPECTOR GENERAL




Report on the Most Serious Management Challenges
    Facing the Small Business Administration

                 JANUARY 2004
                                            December 30, 2003

MEMORANDUM

TO:           Hector V. Barreto
              Administrator

FROM:         Harold Damelin
              Inspector General

SUBJECT:      SBA’s Top Management Challenges for Fiscal Year 2004

In accordance with the Reports Consolidation Act of 2000, we are providing the Office of
Inspector General’s (OIG) Report on the Most Serious Management Challenges Facing the Small
Business Administration (SBA) in Fiscal Year (FY) 2004. We have provided our current
assessment of Agency programs or activities that pose significant risks, including those that are
particularly vulnerable to fraud, waste, error, or mismanagement. The challenges are not
presented in order of priority – we believe that all are critical management issues facing the
Agency.

Our report is based on specific OIG, General Accounting Office (GAO), or other official reports,
as well as our general knowledge of SBA’s programs. Our analysis considers Agency actions
through December 1, 2003.

This year’s report contains one new challenge, which deals with the need for SBA to update its
directives system in order to provide proper guidance and controls over Agency operations. In
addition, Challenge 9 has been updated to focus on fraud committed by loan agents.

While SBA has made progress on many of the challenges, much remains to be done. By their
nature, the top challenges require long-term commitment and attention by the Agency. We have
only recently seen a rising level of attention placed on some of the challenges. While this is
encouraging, SBA needs to continue to expand its efforts to address these critical issues.

This report will be incorporated into the SBA’s FY 2003 Performance and Accountability
Report, as required by law. Please contact me at (202) 205-6586, should you have any questions.




                                                i                          Transmittal Memorandum
                                                         Table of Contents


Transmittal Memorandum ............................................................................................................... i

Table of Contents............................................................................................................................ ii

Challenge 1. SBA needs to improve its managing for results processes and performance data. .. 1

Challenge 2. SBA faces significant challenges in financial management and reporting which
affects its ability to provide reliable, timely and accurate financial information. .......................... 2

Challenge 3. Information systems security needs improvement. .................................................. 3

Challenge 4. Maximizing program performance requires that SBA fully develop, communicate
and implement a human capital management/transformation strategy........................................... 4

Challenge 5. SBA needs better controls over the business loan purchase process........................ 5

Challenge 6. SBA needs to continue improving lender/participant oversight............................... 6

Challenge 7. The Section 8(a) Business Development program needs to be modified so that
more participating companies receive access to business development and standards for
determining economic disadvantage are clear and objective, so that more eligible companies
receive 8(a) contracts. ..................................................................................................................... 7

Challenge 8. SBA needs to clarify its rules intended to deter Section 8(a) Business Development
participants from passing through procurement activity to non-Section 8(a) Business
Development firms.......................................................................................................................... 8

Challenge 9. Preventing loan agent fraud requires additional measures. ...................................... 9

Challenge 10. SBA needs to update its system of directives to provide proper guidance and
control over its operations (New).................................................................................................. 10

Appendix 1: Relevant Reports ...................................................................................................... 12




                                                                       ii                                                 Table of Contents
  Challenge 1. SBA needs to improve its managing for results processes and performance
                                         data.

The Government Performance and Results Act of 1993 (GPRA) was passed in order to improve Federal
program effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. Reliable performance data that measures the results of SBA programs and the
related costs of delivering those results are the cornerstone of an effective performance-based results-
driven organization. However, SBA has not fully implemented performance-based management
processes that use cost information to monitor and manage program activities and ensure that intended
results are achieved efficiently and effectively. For example, OIG audits and inspections found that
SBA's performance measures had not been well defined and had not been properly integrated into the
Agency’s budget submissions and the management and operation of the Agency. In addition, SBA could
not ensure the accuracy and reliability of its performance data for major Agency programs.

The OIG believes that the Agency has made progress toward this challenge in the last year. SBA has
recently adopted a revised Strategic Plan, developed output and outcome measures, and implemented a
mechanism – an Intranet application, “SBA Execution Scorecard” – to report on the status of measuring
its performance. However, the Agency needs to make greater efforts in verifying and validating data and
ensuring that its resources are monitored and aligned with its recently adopted Strategic Plan.

                                         Actions Needed                                               Progress
 Top management provides positive and supportive attitude toward performance-based management focused on
 managing for results.
  Top management provides leadership to coordinate the Agency’s managing for results program
                                                                                                         Yellow
  and commits sufficient resources to support the leadership effort.
  Strategic plan is ratified and reflects top management’s vision and direction.                         Green
  • Appropriate Agency program goals and objectives are established.                                     Green
  • Appropriate performance measures and indicators are established.                                     Green
  • Program managers support SBA’s strategic plan, performance goals, and objectives.                    Yellow
  • Training programs are provided to managers and others responsible for implementing the
                                                                                                         Yellow
       performance results requirement.
  Management provides adequate resources to support processes necessary to have an effective
                                                                                                         Yellow
  performance-based and results-driven operation.
 SBA analyzes risks associated with achieving objectives.
  SBA periodically assesses the risk that it may not achieve its goals, and results are used to redirect
                                                                                                         Yellow
  performance to enhance the successful attainment of goals.
  Performance outcomes are regularly measured and reflect results attributable to Agency programs
                                                                                                         Yellow
  and services delivered.
 Policy and procedures provide guidance to ensure consistency among organizational components.
  Policies and guidelines for developing performance goals, objectives, and measures, and verifying
                                                                                                         Green
  and validating data, are published.
 Information is recorded and communicated to management and others who need it to fulfill their oversight and
 stewardship responsibilities.
  Managers have and use operational and financial data to assess their progress in meeting Agency
                                                                                                         Yellow
  goals and to ensure accountability for effective and efficient use of resources.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress




                                                       1                             Management Challenge # 1
   Challenge 2. SBA faces significant challenges in financial management and reporting
   which affects its ability to provide reliable, timely and accurate financial information.

Various laws and regulations place significant responsibilities on Federal financial managers to assess
whether they are effectively and efficiently managing public resources. During FYs 2002 and 2003, OIG,
GAO, and SBA’s external auditor all noted an increased number of material weaknesses that resulted in
the Agency being unable to produce reliable, timely, and accurate financial information, including its
annual financial statements and the results of past loan asset sales.

The Agency has taken steps to improve its financial management; however, these efforts have been
focused primarily on improving controls over financial statement preparation. SBA still needs to develop
and implement improvements to other aspects of its financial management, including accounting for loan
asset sales, the disaster subsidy estimate process, and accounting for the Master Reserve Fund (MRF).

The Office of the Chief Financial Officer (OCFO) had actions in process or completed as of December 1,
2003, that were aimed at overcoming this challenge. Although preliminary reviews of these actions
indicate that significant progress has been made, the December 1st cut-off date for this report did not
allow the external auditor and OIG to fully assess whether the corrective actions will result in SBA
overcoming its financial management and reporting challenges.

                                       Actions Needed                                              Progress
SBA’s financial reporting process provides complete, reliable, and timely financial management information.
 OCFO produces complete, reliable, and timely financial statements that are prepared in
                                                                                                       Red
 accordance with OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements.
 • SBA’s core financial system is able to provide complete, reliable, timely and consistent
                                                                                                       Red
     financial management information.
 • SBA meets all deadlines for financial reporting.                                                    Red
 • SBA documents all aspects of its financial reporting process.                                     Yellow
 • SBA maintains strong internal control over the financial reporting process to avoid submitting
                                                                                                     Yellow
     financial statements with misclassifications and errors.
SBA maintains proper accounting for and accountability of the MRF.
 SBA fully accounts for the MRF in accordance with all Federal accounting regulations.               Yellow
 SBA utilizes statistically valid tools to measure the financial position of the MRF.                Yellow
SBA maintains control over all aspects of the loan accounting and budgeting processes.
 SBA revises the approach to estimate cash flows for the disaster loan program.                      Yellow
 SBA adheres to the requirements of Federal Financial Accounting and Auditing Technical Release
                                                                                                     Yellow
 No. 3.
 SBA properly accounts for loan asset sales in accordance with all Federal accounting and budget
                                                                                                     Yellow
 regulations.
 • SBA investigates and corrects all known errors made in the accounting and budget records
                                                                                                     Yellow
     from previous loan sales.
 • SBA performs the necessary analysis to assess the effects of loan sales on the subsidy re-
     estimates to determine whether cash flow assumptions in SBA’s subsidy rate model predict        Yellow
     future loan performance.
 • SBA performs the necessary analysis to determine and correct any unexplained decline in the
                                                                                                     Yellow
     subsidy allowance account.
 SBA utilizes a well-documented and tested automated methodology for accumulating cash flows
                                                                                                     Yellow
 necessary for subsidy calculations.
 SBA fully implements quality assurance procedures over the subsidy re-estimation process.           Yellow
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress



                                                      2                            Management Challenge # 2
                 Challenge 3. Information systems security needs improvement.

The confidentiality, integrity, and availability of SBA’s information systems are vital to the continued
successful operation of the Agency. While information technology can result in a number of benefits,
such as information being processed more quickly and communicated almost instantaneously, it also
increases the risk of fraud, inappropriate disclosure of sensitive data, and disruption of critical operations
and services. SBA’s information systems do not have the necessary controls to fully ensure their security.

The Chief Information Officer (CIO) is responsible for all facets of enforcing computer security,
enterprise architecture, and systems development standards for SBA’s 38 major information systems.
While the Agency has corrected a number of information security vulnerabilities, its commitment of
direct resources to improve computer security, provide technical staff support, and develop security
training has been declining. The continuing strain on computer security resources may ultimately result
in further weakening of a computer security program that already lacks sufficient controls to fully protect
SBA’s systems. Also, because of the long-term nature of implementing a security program, completion
of final action on some of the recommendations is not scheduled until the FY 2004 to FY 2005 time
frame or beyond. The OIG will be performing further audit work to evaluate the Agency’s ongoing
efforts in its information security program.


                                         Actions Needed                                               Progress
 SBA’s information systems have the necessary general and application controls to fully protect their security.
  Entity-wide security program controls are in-place and operating effectively.                          Yellow
  Access controls are in-place and operating effectively.                                                Yellow
  Application software development and program change controls are in-place and operating
                                                                                                         Yellow
  effectively.
  System software controls are in-place and operating effectively.                                       Yellow
  Segregation of duty controls are in-place and operating effectively.                                   Yellow
  Service continuity controls are in-place and operating effectively.                                    Yellow
  Application authorization controls are in-place and operating effectively.                             Yellow
  Application completeness controls are in-place and operating effectively.                              Yellow
  Application accuracy controls are in-place and operating effectively.                                  Yellow
  Application integrity of processing and data file controls are in-place and operating effectively.     Yellow
 SBA fully complies with the Federal Information Security Management Act (FISMA).
  Material weaknesses in SBA’s computer security program are being addressed and corrected.              Yellow
  The SBA’s Plan of Actions and Milestones (POA&M) accurately reports on all computer security
                                                                                                         Yellow
  weaknesses and corrective actions.
  The SBA Administrator has clearly set forth FISMA responsibilities and authorities.                    Green
  SBA complies with its Capital Asset and Investment Control Program.                                    Green
  The SBA Administrator ensures that the computer security program is practiced throughout the
                                                                                                          Red
  life-cycle of each agency system.
  SBA integrates its information security program with its critical infrastructure program.              Green
  SBA has identified its critical operations and assets and further defined the interdependencies and
                                                                                                         Yellow
  interrelationships of those operations and assets.
  Procedures and practices for reporting security incidents are in place and operates effectively.       Green
  SBA has assessed risks to operations and assets under its control, maintains security plans and
                                                                                                         Yellow
  performs security tests and evaluation procedures.
  SBA has adequately maintained an agency-wide information security program.                             Yellow
  SBA ensures adequate and up-to-date computer security program training.                                Green
  SBA integrates security into capital planning and investment control.                                  Yellow
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress



                                                       3                              Management Challenge # 3
      Challenge 4. Maximizing program performance requires that SBA fully develop,
    communicate and implement a human capital management/transformation strategy.

As small business practices, products, and needs have changed in the last decade, SBA has made major
modifications in its delivery of goods and services and has begun making significant changes in the
structure of its workforce. To respond to these external and internal changes, SBA developed a Human
Capital Management Plan. This plan, however, deals primarily with specific Office of Human Capital
Management (OHCM) activities instead of providing a comprehensive workforce transformation strategy.
For example, the Human Capital Management Plan generally lacks specific strategies and milestones for
moving SBA to the new vision posed in SBA’s FY 2003-2008 Strategic Plan. This lack of a documented
transformation strategy impedes accountability.

Over the last year, OHCM has made progress in providing the Agency with the support and tools it needs
for transforming SBA’s workforce and SBA is making some progress in this transformation. However,
employees have not been made aware of major changes that will affect them until after the changes have
already been implemented. The lack of Agency employee involvement in the decision-making process
and the timely communication of a transformation strategy can breed uncertainty and mistrust, resulting
in poor employee morale and reduced commitment and productivity.

                                         Actions Needed                                                Progress
Develop, communicate to all employees, and implement a Human Capital Plan which (1) is
structured along the lines of the Human Capital Assessment and Accountability Framework
                                                                                                       Yellow
(released jointly by the Office of Management and Budget, the Office of Personnel Management
and the General Accounting Office) and (2) contains clear customer service standards.
Communicate to all employees and incorporate into the Human Capital Plan a workforce
                                                                                                         Red
transformation strategy that aligns with SBA’s FY 2003-2008 Strategic Plan.
Identify and analyze the knowledge, skills, abilities, and other characteristics that SBA employees
                                                                                                       Yellow
will need to perform successfully over the next five years and complete a gap analysis.
Establish and implement competency models reflecting the core competencies that will be needed
                                                                                                       Yellow
in the next five years.
Develop and implement an evaluation process for regular assessments of Agency skills.                    Red
Establish and implement an evaluation control mechanism to ensure that all employees have
                                                                                                       Yellow
received the appropriate training and have the necessary skills.
Develop and implement a comprehensive succession planning process for all staff levels, including
                                                                                                       Yellow
regular evaluations of the effectiveness/impact of various components of the process.
Make substantial progress in SBA’s workforce transformation to meet the needs of SBA’s FY
                                                                                                       Yellow
2003-2008 Strategic Plan.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress




                                                         4                               Management Challenge # 4
      Challenge 5. SBA needs better controls over the business loan purchase process.

SBA’s guaranty purchase process is the primary tool for assessing lender compliance, on a loan-by-loan
basis, and protecting SBA from making erroneous guaranty purchase payments. Until recently, there had
been few changes in the guaranty purchase process since 1983, when the majority of Section 7(a) loan
applications and all credit-worthiness decisions were reviewed by SBA prior to approval. At the same
time, the Preferred Lenders Program (PLP), which permits lenders to make credit decisions with little or
no SBA oversight, has grown significantly. In FY 2003, the $5.8 billion in PLP loans represented 52
percent of the total dollar value of Section 7(a) loans. OIG audits of early defaulted loans showed that
lenders did not always originate loans in full compliance with SBA’s credit requirements or prudent
lending practices, and SBA’s guaranty purchase process reviews did not consistently detect these non-
compliances, resulting in improper payments. Several OIG audits showed that certain lender errors
continued to go undetected because SBA did not obtain and review the lenders’ entire loan file during the
guaranty purchase review process. The most prevalent lending errors involved repayment ability, equity
injection, use of loan proceeds, and collateral. Also, since SBA did not use statistical sampling
techniques to select the loans for the quarterly Guarantee Purchase Reviews (GPRs), the results were not
reliable for tracking and estimating the level of erroneous payments.

SBA has taken actions to correct many of the deficiencies identified, such as issuing a policy notice
strengthening purchase procedures, developing training modules, and training a limited number of
individuals responsible for making purchase decisions. However, additional actions are needed to further
strengthen the guaranty purchase process and reduce the level of erroneous payments.

                                        Actions Needed                                             Progress
 Top management provides a positive and supportive attitude toward the guarantee purchase process.
  Management establishes an organizational culture where deny and repair actions are used when
                                                                                                      Yellow
  appropriate.
  • Adequate resources are devoted to the purchase process.                                           Yellow
  • Adequate training is provided.                                                                    Yellow
 SBA analyzes risks associated with loan guarantee purchases.
  SBA periodically determines actual or potential risks of erroneous payments.                        Yellow
  SBA determines level of erroneous payments for the entire loan portfolio.                           Yellow
 Policies and procedures provide guidance to ensure consistency and accuracy in the purchase process.
  SBA has clear guaranty purchase procedures, which provide for consistent interpretation.            Yellow
  Current guidance describes adequate documentation needed to make purchase decisions.                Yellow
  Lenders are informed of required documentation to submit with the guaranty purchase request.        Green
  Goals are established for reducing erroneous payments.                                              Green
 Information is recorded and communicated to those who need it to ensure proper guarantee purchase decisions.
  SBA has a system for sharing information among field offices regarding the basis and justification
                                                                                                      Green
  for repairs, denials, and withdrawals of loan guarantees.
  Field offices track the number of guaranty repairs/denials/withdrawals and the information is
                                                                                                      Green
  readily available centrally.
  Information is captured on erroneous payments and is accurate.                                      Yellow
 The guarantee purchase process is properly monitored.
  A quality assurance system provides appropriate feedback to improve the purchase process.           Green
  Progress in achieving established goals for reducing erroneous payments is monitored.               Yellow
  Results of the GPRs, audits, and other reviews are provided to field offices timely and accurately. Green
  Problems identified by the audits and reviews are resolved timely.                                  Yellow
  Information on all loans with identified guaranty purchase issues are flagged in the Delinquent
                                                                                                      Green
  Loan Collection System (DLCS).
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress


                                                      5                            Management Challenge # 5
         Challenge 6. SBA needs to continue improving lender/participant oversight.

SBA is the preeminent gap lender for small business entrepreneurs in the United States. As a gap lender,
SBA necessarily takes more risk than a conventional lender. Since its inception in 1953, SBA has loaned
or guaranteed billions of dollars to finance and spur investment in small business concerns. In its
business loan program, SBA has shifted over the years from an organization that processed loans to one
that relies on program participants to implement its credit programs and services. This reliance increases
the risk of financial loss and noncompliance with policies and procedures. An effective participant
oversight program is critical for ensuring that participant activities serve Agency objectives and comply
with all policies and procedures.

To improve its oversight, the Agency established an Office of Lender Oversight (OLO); completed
multiple cycles of PLP reviews and reviews of selected non-PLP lenders; revised the review process for
Section 504 Certified Development Companies; conducted safety and soundness examinations of the non-
depository Small Business Lending Companies (SBLC); and, implemented a loan monitoring system and
risk-based review process to evaluate participants and program risk for its business loans. The
effectiveness of the new programs will be assessed this year. Overall, OLO appears to be addressing the
elements of its strategic plan and making progress in addressing the actions needed, as described below.

                                                                                             Progress
                                  Actions Needed
                                                                                      7(a)    SBIC         504
 Top management provides a positive and supportive attitude toward lender oversight.
  The Agency establishes on OLO to implement and manage the oversight of lending
                                                                                        Green     N/A     Green
  partners.
  SBA has a plan for lender oversight.                                                  Yellow Yellow Yellow
  Training programs exist for implementing the participant oversight process.           Yellow Yellow Yellow
  Senior management provides adequate resources for the lender oversight program.       Green   Green     Green
 SBA analyzes risks associated with achieving objectives.
  A systematic process exists to estimate the level of financial risk on a per
                                                                                        Yellow Yellow Yellow
  loan/investment and participant basis.
  A systematic process exists to estimate the level of compliance risk on a per
                                                                                        Green Yellow Green
  loan/investment and participant basis.
  Overall program risk is independently reassessed on a recurring basis.                Yellow Yellow Yellow
 Policies and procedures provide guidance to ensure consistency among organizational components.
  Policy and program guidance for lender reviews exists.                                Yellow Yellow Yellow
  SBA provides guidance and training for new participants and those who demonstrate
                                                                                        Green Yellow Green
  an unacceptable level of compliance.
  Uniform policies and procedures have been established for periodic evaluations of
                                                                                        Yellow Yellow Yellow
  participant performance and retention.
 Information is recorded and communicated to management and others who need it to fulfill their oversight and
 stewardship responsibilities.
  SBA has an automated loan monitoring system to capture useful information and
                                                                                        Yellow Yellow Yellow
  effectively monitor risk.
  There is effective communication among SBA’s internal units.                          Green   Green     Green
 Monitoring of performance occurs and findings of audits and other reviews are promptly resolved.
  Standardized and periodic reviews of lending activities that address risk are
                                                                                        Yellow Yellow Yellow
  performed.
  Systems tracking review results and recommendations are implemented.                  Yellow Yellow Yellow
  • The status of each lending partner is periodically reevaluated based on the results
                                                                                        Yellow Yellow Yellow
       of the estimates of financial and compliance risk.
Green-Implemented Yellow-Progress being made or improvements implemented but not evaluated as of this date
Red-Not implemented/no substantial progress


                                                     6                             Management Challenge # 6
Challenge 7. The Section 8(a) Business Development program needs to be modified so that
 more participating companies receive access to business development and standards for
     determining economic disadvantage are clear and objective, so that more eligible
                           companies receive 8(a) contracts.

The Section 8(a) Business Development program (8(a) BD program) does not help the largest number of
8(a) companies in need of business development. The primary vehicle to assist 8(a) companies is through
contracts with Federal agencies. In FY 2002, 50 percent of the dollar value of 8(a) contracts went to
approximately 2 percent of the 8(a) companies, and over half of the companies received no Federal
contract benefit. SBA has not placed sufficient emphasis on business development activities to enhance
the ability of 8(a) BD participants to compete for contracts and does not adequately ensure that only
companies that are owned by economically disadvantaged entrepreneurs and in need of business
development remain in the program. In addition, an ever-changing Federal contracting arena, coupled
with other socio-economic factors, has created an environment where reengineering of the 8(a) BD
program is needed.

SBA needs to:
   • Emphasize business development so that the program fulfills its statutory purpose of providing
      assistance to 8(a) companies so they can compete in the American economy;
   • Develop, implement, and enforce criteria defining “business success;”
   • Develop new standards for determining economic disadvantage in order to effectively measure
      diminished capital and credit opportunities – the definition of success included in the law;
   • Ensure a more equitable distribution of contracting opportunities to program participants, and
   • Provide sufficient training to staff responsible for evaluating companies.

SBA has recently taken the following actions to address the weaknesses in the 8(a) BD Program:
   • Started a process that will ultimately have 8(a) BD firms attend workshops to develop
      Individualized Business Development Plans, including training in and assistance with planning to
      obtain needed business development;
   • Tasked the Associate Administrator for Business Development, via the FY 2004 Performance
      Scorecard, with working with Federal agencies to get them to distribute their contracts more
      equitably to 8(a) BD firms; and
   • Drafted an 8(a) BD Program Standard Operating Procedure (SOP), which is expected to be
      further refined in FY 2004 in order to incorporate improvements recommended by OIG.

                                          Actions Needed                                                Progress
 Refocus the 8(a) BD program to emphasize business development.                                         Yellow
 Develop criteria defining “business success.”                                                           Red
 Graduate participants once they reach those levels defined as “business success.”                       Red
 Develop a mechanism that ensures contracting opportunities are more equitably distributed to 8(a)
                                                                                                        Yellow
 BD program participants.
 Redefine “economic disadvantage” using objective, quantitative, qualitative, and other criteria that
                                                                                                          Red
 effectively measure capital and credit opportunities.
 Provide sufficient financial and analytical training to business opportunity specialists to enable
                                                                                                        Yellow
 them to evaluate a company’s business profile and competitive potential.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress




                                                        7                                 Management Challenge #7
    Challenge 8. SBA needs to clarify its rules intended to deter Section 8(a) Business
 Development participants from passing through procurement activity to non-Section 8(a)
                             Business Development firms.

The 8(a) BD program is intended to be used exclusively for business development purposes in order to
help small businesses owned by "socially" and "economically" disadvantaged persons compete on an
equal basis in the mainstream of the American economy. While SBA has rules that restrict the amount of
a contract that an 8(a) BD firm may “pass through” to a non-Section 8(a) BD firm, these rules are not
fully adhered to. OIG audits found that many non-8(a) BD companies received substantial financial
benefit through the 8(a) BD program. For example, there were contracts for computer equipment where
80 percent or more of the contract costs were realized by large computer manufacturers. Therefore, the
SBA’s mission to help small businesses was not being fully realized and the intended purpose of the
program was not being met.

SBA has taken action to address this issue by developing a proposed regulation that includes a new
standard for value-added resellers. This regulation is in the final approval phase. SBA is also developing
a size regulation final rule that will modify Sections 121 and 134 of 13 CFR. Among other issues, this
rule should address the definition of manufacturing. These proposed changes, if properly administered,
could resolve this management challenge. After the proposed changes are implemented, we will
determine whether this issue has been resolved.

                                       Action Needed                                           Progress
 Tighten the definition of “manufacturing” to preclude the practice of making only minor
                                                                                                Yellow
 modifications to the products of large and other manufacturers.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress




                                                   8                              Management Challenge # 8
            Challenge 9. Preventing loan agent fraud requires additional measures.

Fraud in the business loan program continues to be a problem, with loan packagers and other for-fee
agents frequently playing a role. Although the loans involving loan agent schemes that have been
identified thus far represent a small percentage of SBA’s total portfolio, they have involved hundreds of
millions of dollars. Without corrective measures, the Agency leaves itself vulnerable to additional risk.
Fraud could be reduced by systematically identifying loan agents, obtaining necessary background
information, and tracking their association with individual SBA loans. The OIG believes that the
statutory framework already exists for SBA to take these preventive measures and has requested a
confirming legal opinion from the Agency’s Office of General Counsel (OGC).

Several years ago, the Agency drafted a modification to an existing compensation agreement (SBA Form
159) in order to gather identification information from loan agents. Unfortunately, this effort was never
completed. If the Agency systematically identified loan agents and obtained necessary background
information, including criminal background checks, it would have access to information on prior criminal
activity that could indicate an individual’s propensity to engage in fraudulent activities. In addition, SBA
could track loan agents’ association with individual loans in order to identify patterns of potentially
fraudulent behavior and prevent further harm to the Agency. SBA has made no progress on this
management challenge since it was first issued by the OIG in 1998.

                                          Actions Needed                                              Progress
 Within Privacy Act constraints, SBA requires all loan agents to provide the Agency with the
                                                                                                        Red
 information and releases necessary to conduct criminal background checks.
 SBA systematically identifies all loan agents and tracks their association with individual loans.
                                                                                                        Red
 This process would include maintaining identifying data on loan agents in an electronic database.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress




                                                       9                                 Management Challenge # 9
Challenge 10. SBA needs to update its system of directives to provide proper guidance and
                           control over its operations (New).

SBA’s system of directives – used to instruct its staff and resource partners on the policies and procedures
necessary to conduct Agency-related activities – is breaking down. This system is critical because it is
the primary means for managing billions of dollars in loan guarantees and other financing, as well as a
variety of other programs. Expired Policy and Procedural Notices continue to be used, while drafts of
proposed SOPs are sometimes used ahead of time. In other cases, directives are simply obsolete. Unless
corrective actions are taken, the resulting uncertainty can waste time and money, delay service delivery to
small businesses, create a negative public image, and produce unforeseen consequences.

The overall directives system needs to be significantly overhauled. As recommended by the OIG, SBA
formed a working group to develop a plan for revising the directives system’s structure. The plan was
finalized in November 2003. Moreover, according to Agency officials, SOPs previously not on SBA’s
Web site are now being scanned in electronically to make them more accessible to employees. In
addition, SBA circulated internally a draft policy notice to revise the clearance procedures for future
permanent and temporary directives and recently began revising the SOP governing directives
management. The new SOP is scheduled to be ready for clearance on September 30, 2004. Finally, the
plan calls for SBA to complete, by July 2005, a review of all directives in existence as of October 1, 2003,
in order to ensure that any backlog of obsolete or draft directives is cleared out.

The Agency is in the early stages of actually revising its entire directives system but, if SBA maintains its
current momentum on the directives issue, it is likely that by December 2004 it will have made
measurable progress.

                                         Actions Needed                                               Progress
Fully implement a revision of SBA’s directives system, including revising out-of-date directives
                                                                                                       Yellow
and implementing an ongoing periodic review mechanism to ensure they kept up-to-date.
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress

Additional Information

Since this is a newly issued challenge, the following additional information is being included to further
illustrate the problems related to this challenge:

    •   SBA made $7.6 million in erroneous payments when it honored the guaranties on a sample of
        defaulted loans reviewed by the OIG. The Agency’s review process for purchasing defaulted
        guaranteed loans did not detect numerous lender errors and non-compliances, largely because of
        the lack of adequate guidance. Agency procedures have not been significantly revised since
        1983, while the number of loans made by lenders authorized to make credit decisions without
        SBA oversight has increased dramatically. Moreover, a survey of SBA loan officers found that
        most respondents indicated that the SOP needed to be strengthened.

    •   Since 1992’s major legislative changes, the outstanding leverage held by Small Business
        Investment Companies (SBICs) had increased from $805 million to $4 billion by the end of FY
        2001. Yet, existing procedures are outdated and do not effectively minimize program risk. The
        SOP on oversight and regulation of SBICs has not been revised since 1989, well before the new
        legislation was enacted. As of December 2003, a revised SOP had not been finalized.



                                                       10                               Management Challenge #10
•   Although an SOP for the Microloan Program has been in draft over the last 10 years, it has never
    been issued. Moreover, the guidance on which program staff and participants rely is inadequate.

•   In response to lenders and field staff seeking guidance as to whether to comply with a Policy
    Notice after its expiration date, SBA district office, program, and legal staff offered differing
    interpretations. The notice instructed SBA employees not to verify the citizenship status of
    naturalized citizens and had an expiration date of June 1, 2002. Such inconsistency can result in
    confusion, ineffective service to small businesses, and reduced programmatic accountability.

•   SBA regulations did not prohibit a Regional Administrator (RA) from self-authorizing travel.
    Consequently, the Agency had no independent official determining whether the RA’s travel
    expenses were necessary. Had the new – but as yet unissued – SOP covering travel been in effect
    at the time, this situation likely would not have occurred. An OIG audit recommended that the
    Agency issue the new SOP, to include requiring another official to authorize RAs’ travel, as well
    as obtain reimbursement from the RA for unallowable travel payments.

•   District offices are supposed to review Section 8(a) firms’ business plans annually. A Procedural
    Notice on the annual review process had an expiration date of May 1, 1996. According to one
    official, while the notice technically is not in effect, it is still being used until a new SOP is
    issued. Consequently, the program is using an old directive that may be functionally obsolete.

•   A draft SOP for small purchases, grants, and cooperative agreements was prepared in August
    1998. Staff members have been directed to follow the draft SOP even though it has not been
    cleared by SBA offices or formally issued with an effective date. Thus, Agency employees are
    making official decisions based on a document that technically has no official authority and could
    be significantly changed.




                                              11                            Management Challenge #10
                                     Appendix 1: Relevant Reports

Most of the SBA OIG reports listed can be found at: www.sba.gov/ig/igreadingroom.html.

Challenge 1:

•   GAO, Status of Achieving Key Outcomes and Addressing Major Management Challenges, Report # GAO-01-
    792, June 2001.
•   SBA OIG, Results Act Performance Measurement for the Section 8 (a) Minority Small Business and Capital
    Ownership Development Program, Audit Report # 1-11, March 27, 2001.
•   SBA OIG, Results Act Performance Measurement for the Disaster Assistance Program, Audit Report # 1-06,
    February 15, 2001.
•   SBA OIG, Results Act Performance Measurement for the Section 7(a) Business Loan Program, Audit Report #
    1-01, December 4, 2000.
•   SBA OIG, Advisory Memorandum: Data Issues Regarding the Processing Centers, Inspection Report #00-09-
    01, September 28, 2000.
•   SBA OIG, Coordination and Performance Measurement in SBA’s Entrepreneurial Development Programs,
    Inspection Report #00-09-02, September 28, 2000.
•   SBA OIG, Results Act Performance Measurement for the Surety Bond Guarantee Program, Audit Report #0-
    26, September 25, 2000.
•   SBA OIG, Results Act Performance Measurement for the Small Business Investment Company, Audit Report
    #0-25, September 6, 2000.

Challenge 2:

•   SBA OIG, Audit of SBA’s FY 2002 Financial Statements Management Letter, Audit Report #3-24, April 14,
    2003
•   SBA OIG, Audit of SBA’s FY 2002 Financial Statements, Audit Report #3-06, January 30, 2003
•   GAO, Accounting Anomalies and Limited Operational Data Make Results of Loan Sales Uncertain, GAO-03-
    87, January 2003
•   SBA OIG, Audit of SBA’s Oversight of the Fiscal Transfer Agent for the Section 7(a) Loan Program, Audit
    Report #03-08, January 30, 2003
•   SBA OIG, Audit of SBA’s FY 2001 Financial Statements Management Letter, Audit Report #2-17, April 12,
    2002
•   SBA OIG, Audit of SBA’s FY 2001 Financial Statements, Audit Report #2-04, February 27, 2002.
•   SBA OIG, Audit of SBA’s FY 2000 Financial Statements Management Letter, Audit Report #1-15, August 15,
    2001
•   SBA OIG, Audit of SBA’s FY 2000 Financial Statements, Audit Report #1-08, February 28, 2001

Challenge 3:

•   SBA OIG, Monitoring of SBA’s Implementation of its Disaster Credit Management System, Audit Report #3-
    39, September 24, 2003.
•   SBA OIG, Independent Evaluation of SBA’s Computer Security Program, Advisory Memorandum Report #3-
    37, September 17, 2003.
•   SBA OIG, Audit of SBA’s Acquisition, Development and Implementation of its Joint Accounting and
    Administrative Management System, Audit Report #3-32, June 30, 2003.
•   SBA OIG, Audit of SBA’s Information System Controls, Audit Report #3-20, March 31, 2003.
•   SBA OIG, SBA’s Implementation of its Critical Infrastructure Protection Program, Phase III, Audit Report #3-
    03, January 10, 2003.




                                                      12                          Appendix 1: Relevant Reports
Challenge 4:

•   GAO, Small Business Administration: Progress Made, but Transformation Could Benefit from Practices
    Emphasizing Transparency and Communication, GAO-04-076, October 2003.
•   OMB, The President’s Management Agenda and OMB’s Human Capital Scorecard,
    http://www.results.gov/agenda/fiveinitatives.html http://www.results.gov/agenda/departmentupdates12.html
•   GAO, Results Oriented Cultures: Implementation Steps to Assist Mergers and Organizational
    Transformations, GAO-03-699, July 2003
•   GAO, Small Business Administration: Workforce Transformation Plan is Evolving, GAO-02-931T, July 16,
    2002.
•   SBA OIG, Modernizing Human Capital Management, Inspection Report #2-20, May 31, 2002.
•   GAO, Small Business Administration: Current Structure Presents Challenges for Service Delivery, GAO-02-17,
    October 2001.
•   GAO, Small Business Administration: Steps Taken to Better Manage its Human Capital, but More Needs to be
    Done, GAO/T-GGD/AIMD-00-256, July 20, 2000.
•   OIG, A Framework for Considering the Centralization of SBA Functions, November 1996.

Challenge 5:

•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #3-30, June 19, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #3-27, May 22, 2003
•   SBA OIG, Audit of the Guaranty Purchase Process, Audit Report #3-15, March 17, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #3-07, January 23, 2003
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-32, September 30, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-30, September 24, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-23, August 7, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-15, March 29, 2002
•   SBA OIG, Improvements are Needed in Small Business Lending Company Oversight Process, Audit Report #2-
    12, March 21, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-03, February 27, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #2-05, February 27, 2002
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #1-10, March 9, 2001.
•   GAO, Major Management Challenges and Program Risks, GAO-01-260, January 2001.
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #0-10, April 23, 2000.
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #0-12, March 28, 2000.
•   SBA OIG, Audit of an Early Defaulted Loan, Audit Report #0-05, February 14, 2000.
•   SBA OIG, Business Loan Guarantee Purchases, Audit Report #7-5-H-011-026, September 30, 1997.

Challenge 6:

•   SBA OIG, SBIC Oversight, Audit Report, #3-33, July 1, 2003
•   GAO, Continued Improvements Needed in Lender Oversight, Report 03-90, December 2002
•   SBA OIG, Impact of Loan Splitting on Borrowers and SBA, Advisory Memorandum Report #2-31, September
    30, 2002.
•   SBA OIG, Improvements needed in SBLC Oversight, Advisory Memorandum Report, #2-12, March 20, 2002
•   SBA OIG, Preferred Lender Oversight Program, Audit Report # 1-19, September 27, 2001.
•   SBA OIG, SBA Follow-up on SBLC Examinations, Audit Report # 1-16, August 17, 2001.

Challenge 7:

•   SBA OIG, Section 8(a) Program Continuing Eligibility Reviews, Audit Report #4-3-H-006-021, September 30,
    1994.


                                                     13                          Appendix 1: Relevant Reports
Challenge 8:

•   SBA OIG, NOAA Computer Workstation Contracts, Audit Report #87H002017, June 18, 1998.

Challenge 9:

•   SBA OIG, Applicant Character Verification in SBA’s Business Loan Program, April 5, 2001.
•   SBA OIG, Summary Audit of Section 7(a) Loan Processing, Audit Report #0-03, January 11, 2000.
•   SBA OIG, Loan Agents and the Section 7(a) Program, Inspection Report #98-03-01, March 31, 1998.
•   SBA OIG, Fraud Detection in SBA Programs, Inspection Report #97-11-01, November 24, 1997.
•   SBA OIG, Operation Cleansweep Memorandum, August 21, 1996.

Challenge 10:

•   SBA OIG, Audit of SBIC Oversight, Audit Report #3-33, July 1, 2003.
•   SBA OIG, Problems with SBA’s Directives System, Inspection Advisory Memorandum #3-28, May 22, 2003.
•   SBA OIG, Guaranty Purchase Processing: Directors’ Survey Responses and Loan Officers’ Survey Responses,
    Inspection Report #3-16, March 18, 2003.
•   SBA OIG, Audit of the Guaranty Purchase Process, Audit Report #3-15, March 17, 2003.
•   SBA OIG, The Microloan Program: Moving Toward Performance Management, Inspection Report #3-26,
    May 13, 2003.
•   SBA OIG, Standard Operating Procedure 00-11, Audit Memorandum, December 17, 2002.
•   SBA OIG, Travel of SBA’s Former Regional Administrator, Audit Report #2-22, August 7, 2002.




                                                     14                         Appendix 1: Relevant Reports
